                   AUDIT REPORT


                    Audit of the Regional Counsel Role
                       in the Enforcement Process

                      OIG-09-A-10 May 11, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                           May 11, 2009



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF THE REGIONAL COUNSEL ROLE IN THE
                            ENFORCEMENT PROCESS (OIG-09-A-10)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of the
Regional Counsel Role in the Enforcement Process.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to an April 20, 2009, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Anthony Lipuma, Deputy Assistant Inspector General for Audits, at
415-5910.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                   Audit of the Regional Counsel Role in the Enforcement Process



EXECUTIVE SUMMARY

   BACKGROUND

        The U.S. Nuclear Regulatory Commission (NRC) is authorized to enforce
        its regulatory requirements by imposing sanctions against licensees who
        violate those requirements. The agency’s enforcement program is
        directed by the Office of Enforcement (OE) in headquarters, but is
        implemented primarily in the regional offices, where staff conduct
        inspections and investigations of licensees to identify violations and
        assess their significance so that appropriate enforcement actions can be
        determined.

        In three of NRC’s four regional offices, a dedicated enforcement staff
        supervisor oversees the work of the regional enforcement staff and
        another individual serves as the region’s attorney, or Regional Counsel.
        In Region II, however, the Regional Counsel serves both as the region’s
        attorney and as the enforcement staff supervisor. As enforcement
        supervisor, this individual is to ensure that the region adheres to the
        agency’s enforcement policy, oversees the preparation of escalated
        enforcement packages, and performs other enforcement related tasks. As
        Regional Counsel, this individual provides legal advice to the region,
        including advice on the legal sufficiency of escalated enforcement
        packages. This audit report refers to Region II’s arrangement as the “dual
        role” approach.

        A recent Office of the Inspector General (OIG) audit found that differences
        in the ways the regional offices implement the enforcement program can
        significantly impact the enforcement process, leaving enforcement
        decisions vulnerable to challenge and potentially compromising public
        confidence in NRC’s enforcement program.

   PURPOSE

        The audit objective was to determine whether combining the roles of
        regional counsel and enforcement supervisor is a workable approach for
        regional enforcement programs. Because this approach is currently used
        only in Region II, the audit findings describe what was found in that region;
        however, the findings and recommendations are applicable for any region
        that would use the dual role approach.




                                       i
                                  Audit of the Regional Counsel Role in the Enforcement Process



RESULTS IN BRIEF

      The dual role approach could work for regional enforcement programs if:

              The appropriate human resources steps are followed.

              Appropriate internal controls are implemented to ensure that
               written legal advice provided by the dual role holder is
               distinguished from non-legal advice. Participants in discussions
               with the dual role holder that involve sensitive information
               should be made aware that information disclosed is of a
               sensitive nature if doubt exists that the participants are not
               otherwise aware of the sensitive nature of the discussions.

      Human Resources Steps Were Not Followed

      NRC uses the dual role position in Region II, but did not follow human
      resources requirements to formally establish a dual role position in Region
      II. Specifically, Region II did not (1) develop a position description for the
      job or (2) evaluate the position to ensure it was properly classified or
      included the necessary background requirements. Instead, the region
      simply assigned the enforcement supervisor duties to the Regional
      Counsel without changing this individual’s job title or assessing whether
      the Regional Counsel possessed the background requirements listed in
      the enforcement supervisor position description. Although new elements
      and standards reflecting both sets of duties were prepared, and the
      Regional Counsel has been evaluated against these elements and
      standards, these criteria could not be based on a current position
      description or position evaluation because none existed.

      Agency managers did not follow the required human resources steps
      because they were unaware such steps were necessary. Without
      following human resource requirements to formally establish a dual role
      position, the dual role holder could be subject to unfair rating criteria, and
      the enforcement program might not be adequately supported.

      Internal Controls To Distinguish Legal From Non-Legal Advice Were Not
      Implemented

      Agency managers have not implemented management controls to ensure
      that legal advice provided by an agency attorney with a line function (dual
      role) is readily distinguishable from non-legal advice. Although NRC’s
      Sensitive Unclassified Non-Safeguards Information (SUNSI) policy
      requires agency attorneys to mark their documents as containing legal




                                      ii
                                Audit of the Regional Counsel Role in the Enforcement Process



     advice when appropriate, and the agency’s General Counsel expects such
     marking to occur, the Region II dual role holder does not make such
     notations. Furthermore, there is no parallel requirement to provide similar
     clarification about legal advice provided during oral discussions.

     Management controls were not implemented because they were not
     deemed necessary. However, without such clarification, the dual role
     arrangement could lead to public misunderstanding or legal challenge
     related to the issue of attorney-client privilege.

RECOMMENDATIONS

     A consolidated list of recommendations appears on page 11 of this report.

AGENCY COMMENTS

     During an exit conference held on April 20, 2009, the agency generally
     agreed with the findings and recommendations in this audit report, but
     opted to provide written comments concerning the draft audit report. OIG
     modified the report as we deemed appropriate in response to the
     comments. NRC reviewed the modifications and decided not to submit
     formal written comments to this final version of the report.




                                   iii
            Audit of the Regional Counsel Role in the Enforcement Process




[Page intentionally left blank.]




               iv
                            Audit of the Regional Counsel Role in the Enforcement Process



ABBREVIATIONS AND ACRONYMS

       MD      Management Directive and Handbook

       NRC     U.S. Nuclear Regulatory Commission

       OE      Office of Enforcement

       OGC     Office of the General Counsel

       OIG     Office of the Inspector General

       SUNSI   Sensitive Unclassified Non-Safeguards Information




                               v
            Audit of the Regional Counsel Role in the Enforcement Process




[Page intentionally left blank.]




               vi
                                              Audit of the Regional Counsel Role in the Enforcement Process



TABLE OF CONTENTS

       EXECUTIVE SUMMARY ......................................................................... i

       ABBREVIATIONS AND ACRONYMS..................................................... v

       I.     BACKGROUND .............................................................................. 1

       II.    PURPOSE....................................................................................... 2

       III.   FINDINGS ....................................................................................... 3

              A.    HUMAN RESOURCES STEPS WERE NOT FOLLOWED .....................3

              B.    INTERNAL CONTROLS TO DISTINGUISH LEGAL
                    FROM NON-LEGAL ADVICE WERE NOT IMPLEMENTED ...................7

       IV. AGENCY COMMENTS ................................................................. 10

       V.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 11

       APPENDIX

       SCOPE AND METHODOLOGY............................................................ 13




                                                  vii
           Audit of the Regional Counsel Role in the Enforcement Process




[Page intentionally left blank.]




              viii
                                                 Audit of the Regional Counsel Role in the Enforcement Process



I.   BACKGROUND

                The U.S. Nuclear Regulatory Commission (NRC) is authorized to enforce
                its regulatory requirements by imposing sanctions against licensees who
                violate those requirements. The agency’s enforcement program is
                directed by the Office of Enforcement (OE) in headquarters, but is
                implemented primarily in the regional offices, where staff conduct
                inspections and investigations of licensees to identify violations and
                assess their significance so that appropriate enforcement actions can be
                determined. Less significant (“non-escalated”) violations may be
                addressed entirely at the regional office level, while more significant
                (“escalated”) violations are addressed through a collaborative process
                involving OE, the Office of the General Counsel (OGC), and other
                headquarters offices as well as the regional offices.1

                In three of NRC’s four regional offices, a dedicated enforcement staff
                supervisor oversees the work of the regional enforcement staff and
                another individual serves as the region’s attorney, or Regional Counsel.
                In Region II, however, the Regional Counsel serves both as the region’s
                attorney and as the enforcement staff supervisor.2 As enforcement
                supervisor, this individual is to ensure that the region adheres to the
                agency’s enforcement policy, oversees the preparation of escalated
                enforcement packages, and performs other enforcement related tasks. As
                Regional Counsel, this individual provides legal advice to the region,
                including advice on the legal sufficiency of escalated enforcement
                packages. This audit report refers to Region II’s arrangement as the “dual
                role” approach.

                Although NRC’s regional counsels are supervised by and report to their
                regional administrator, they also receive guidance and direction from
                OGC, which directs matters of law and legal policy for NRC, providing
                opinions, advice, and assistance to the agency. According to
                Management Directive 9.7, Organization and Functions, Office of the
                General Counsel, this includes coordinating and monitoring the legal
                activities of regional counsels.




1
 Escalated enforcement includes violations designated through the traditional enforcement process as
Severity Level I, II, and III and violations related to Red, Yellow, or White significance determination
process (SDP) findings. Non-escalated enforcement refers to violations designated as either Severity
Level IV or associated with a Green SDP finding.
2
  In all four regions, the supervisor also oversees the regional allegations staff. However, because this
report focuses only on enforcement, information on allegation positions is not provided.

                                                     1
                                               Audit of the Regional Counsel Role in the Enforcement Process



                 A recent Office of the Inspector General (OIG) audit3 found that
                 differences in the ways the regional offices implement the enforcement
                 program can significantly impact the enforcement process, leaving
                 enforcement decisions vulnerable to challenge and potentially
                 compromising public confidence in NRC’s enforcement program.


II.     PURPOSE

                 The audit objective was to determine whether combining the roles of
                 regional counsel and enforcement supervisor is a workable approach for
                 regional enforcement programs. Because this approach is currently used
                 only in Region II, the audit findings describe what was found in that region;
                 however, the findings and recommendations are applicable for any region
                 that would use the dual role approach. This audit was initiated
                 subsequent to OIG’s Audit of NRC’s Enforcement Program, based on
                 questions about dual role effectiveness raised during that review. The
                 Appendix contains information on the audit scope and methodology.




3
    OIG-08-A-17, Audit of NRC’s Enforcement Program, dated September 26, 2008.

                                                  2
                                         Audit of the Regional Counsel Role in the Enforcement Process



III.   FINDINGS

            The dual role approach could work for regional enforcement programs if:

             The appropriate human resources steps are followed.

             Appropriate internal controls are implemented to ensure that written
              legal advice provided by the dual role holder is distinguished from non-
              legal advice. Participants in discussions with the dual role holder that
              involve sensitive information should be made aware that information
              disclosed is of a sensitive nature if doubt exists that the participants
              are not otherwise aware of the sensitive nature of the discussions.


       A.   HUMAN RESOURCES STEPS WERE NOT FOLLOWED

            The dual role approach can be a workable arrangement for regional
            enforcement programs if the appropriate human resources management
            directives are followed. However, agency managers did not follow human
            resources requirements to formally establish a dual role position in Region
            II because they were unaware that such steps were necessary. As a
            result, the dual role holder could be subject to unfair rating criteria, and the
            enforcement program might not be adequately supported.

            Human Resources Requirements

            NRC’s policy is to appoint and assign well-qualified employees in a fair,
            equitable, efficient, and effective manner to carry out the agency’s mission.
            Toward this end, the agency has issued management directives covering
            a range of human resources issues. These directives require that:

             Position descriptions be prepared when a new position is established
              or when a significant change in the assigned duties or responsibilities
              of an existing position occurs (Management Directive and Handbook
              10.37, Position Evaluation and Benchmarks).

             Position evaluations be conducted for each position so that a proper
              occupational series and grade may be determined and qualification
              requirements established (Management Directive and Handbook
              10.37).

             Supervisors assure that position descriptions reflect the duties and
              responsibilities assigned to their employees (Management Directive
              and Handbook 10.67, Non-SES Performance Appraisal System).




                                            3
                           Audit of the Regional Counsel Role in the Enforcement Process



 Employees be appraised annually to assess their performance against
  performance plans based on the requirements of the employee’s
  position (Management Directive and Handbook 10.67).

 The individual filling the position possesses the knowledge, skills, and
  abilities to fill the position (Management Directive and Handbook 10.15,
  Merit Staffing Program).

NRC’s regional offices provided OIG with their latest position descriptions
for the positions of (1) regional counsel and (2) enforcement supervisor.
Background requirements for both sets of positions were similar across
the regions. According to the position descriptions from all four regional
offices, a regional counsel must have graduated from an accredited law
school and an enforcement supervisor must have an engineering
background. In two of the regional offices, the enforcement supervisor
must have at least an undergraduate degree in nuclear engineering,
engineering, health physics, or other scientific discipline, or equivalent
experience in one of these fields. In the other two regional offices, the
enforcement supervisor must have a thorough knowledge of theories,
principles, and practices of nuclear engineering and radiation safety,
supplemented by extensive and responsible experience in the field of
engineering.

To create a position that combines the roles of regional counsel and
enforcement supervisor as it is presently defined across the agency, (1)
the position description would need to include both a legal education and
a technical education and/or background requirement and (2) any
candidate selected to fill the position would need to possess both sets of
qualifications.

NRC Did Not Follow Human Resources Steps

NRC uses the dual role position in Region II, but did not develop a position
description for the job and did not evaluate the position to ensure it was
properly classified or included the necessary background requirements.
Instead, the region simply assigned the enforcement supervisor duties to
the Regional Counsel without changing this individual’s job title or
assessing whether the Regional Counsel possessed the background
requirements listed in the enforcement supervisor position description.
Although new elements and standards reflecting both sets of duties were
prepared, and the Regional Counsel has been evaluated against these
elements and standards, these criteria could not be based on a current
position description or position evaluation because none existed.




                              4
                            Audit of the Regional Counsel Role in the Enforcement Process



The Region II Administrator, who implemented the dual role arrangement
approximately 9 years ago, explained that it was a regional staffing
decision made after OGC stopped providing the regions with 1 FTE for a
regional counsel position. The Regional Administrator said this was a
sensible way to fully utilize the Regional Counsel. The Regional Counsel
recalled that the Regional Administrator also felt it would provide the
Regional Counsel with management experience. The Regional
Administrator explained that although the Regional Counsel lacks the
technical background listed as a prerequisite in the enforcement
supervisor position description, the Regional Counsel has the skills to
succeed in the position and has consistently performed well in the dual
role. The Regional Administrator further stated that there are a sufficient
number of participants in the regional enforcement process who do
possess a technical background, that the enforcement team leader’s role
is to provide policy – not technical – guidance, and that, collectively, the
required skills are applied to the enforcement review process.

Agency Did Not Recognize Need for Human Resources Action

Agency managers did not follow required human resources steps because
they were unaware that such steps were necessary. According to Region
II’s Human Resources Team Leader, at the time the Region II Regional
Counsel was assigned the new role, it was viewed as a realignment of
work and a lateral reassignment rather than assignment to a new position.
The Team Leader recalled that the new assignment was seen as a
prudent business decision to better utilize a resource. The Team Leader
also noted that while the enforcement supervisor position description
describes a technical background requirement, Region II managers did
not view the position as technical. The Team Leader agreed that Region
II will now update the position description for the dual role position and
conduct a position evaluation that will be submitted to the headquarters
Office of Human Resources to verify the evaluation outcome.

Impact on Dual Role Holder and Agency

Without taking the necessary human resources steps to formally establish
the dual role regional counsel/enforcement supervisor position, the dual
role holder could be subject to unfair rating criteria, and the enforcement
program might not be adequately supported.

NRC managers have the latitude to make staffing decisions that benefit
their organizations provided they follow human resources requirements,
which exist to ensure fairness and consistency in agency staffing
decisions. Furthermore, if Region II or any other region determines that a




                               5
                             Audit of the Regional Counsel Role in the Enforcement Process



technical background is no longer needed for a position, then they must
follow applicable human resources steps to change the position
description or risk appearing arbitrary or inconsistent in filling the position
with someone who does not meet the background requirements.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Develop a new position description and conduct a position evaluation
   for the dual role Regional Counsel/Enforcement Supervisor position
   and have headquarters Office of Human Resources verify the
   evaluation outcome.

2. Ensure that a dual role holder meets the requirements for the new
   position.




                                6
                                  Audit of the Regional Counsel Role in the Enforcement Process



B.   INTERNAL CONTROLS TO DISTINGUISH LEGAL FROM NON-LEGAL ADVICE WERE
     NOT IMPLEMENTED

      Agency managers have not implemented management controls to ensure
     that legal advice provided by an agency attorney with a line function (dual
     role) is readily distinguishable from non-legal advice. Although NRC’s
     Sensitive Unclassified Non-Safeguards Information (SUNSI) policy requires
     agency attorneys to mark their documents as containing legal advice when
     appropriate, and the agency’s General Counsel expects such marking to
     occur, the Region II dual role holder does not make such notations.
     Furthermore, there is no parallel requirement to provide similar clarification
     about legal advice provided during oral discussions. Management controls
     were not implemented because they were not deemed necessary.
     However, without such clarification, the dual role arrangement could lead to
     public misunderstanding or legal challenge related to the issue of attorney-
     client privilege.

     Management Controls To Distinguish Legal From Policy Advice

     Management controls are needed for any dual role position that combines
     the role of a functioning agency attorney (advisory role) with a line-staff
     (program implementation) position to ensure that legal advice or guidance
     provided by the dual role holder in their attorney role is readily
     distinguishable from non-legal advice or guidance this individual provides
     in their other role. Distinguishing legal from non-legal advice is particularly
     important in connection with the attorney-client and attorney work product
     privilege and in light of the agency’s goal for openness and clarity in its
     regulation of the nuclear industry.

     Attorney-client privilege is a legal concept that identifies certain
     communications between a client and their attorney as confidential or
     protected from disclosure requirements. A related concept is the work-
     product doctrine, which provides protection from disclosure through the
     legal process of pre-trial discovery of certain documents and other tangible
     things prepared by a lawyer in preparation for, or anticipation of, going to
     trial. According to an OGC attorney, the prerequisites for information to be
     considered attorney-client privilege are (1) an attorney who is officially
     performing the role of an attorney for a client provides the information and
     (2) the attorney is providing legal advice. Therefore, the OGC attorney
     explained, whenever a regional counsel provides legal advice in his or her
     capacity as an attorney within a region, the information is subject to
     attorney-client privilege.




                                     7
                            Audit of the Regional Counsel Role in the Enforcement Process



NRC’s SUNSI policy requires documents to be marked as attorney-client
privilege or work-product, as appropriate. An agency attorney who also
performs a line function may need to identify oral sensitive information,
such as legal advice, so that such information can properly be understood
as being sensitive.

Agency Did Not Implement Needed Management Controls

NRC has not imposed management controls to ensure that advice
provided by a functioning agency attorney, who also performs an agency
line function, is clearly distinguished as legal versus non-legal in nature.
Furthermore, the Region II dual role holder does not specify in written
products or oral discussion whether the advice provided is legal or non-
legal in nature.

The agency’s General Counsel told OIG that it is good practice for agency
attorneys to clarify whether information is of a legal or policy nature in
written documents in accordance with NRC’s SUNSI policy and in oral
discussions if the distinction is not readily apparent. The General Counsel
said it is important for the dual role holder to make such distinctions and
expects this is occurring in Region II. However, the General Counsel
would not expect such clarification to become overly procedural in nature
or ask attorneys always to clarify because in many cases it is very obvious.
Further, according to OGC staff, the expectation that oral legal advice be
identified as sensitive should not operate to interfere with the free flow of
discussion involving legal and programmatic policy advice.

No Requirement To Preface Advice

Management controls to ensure a distinction between legal and
programmatic advice were not implemented because they were not
deemed necessary.

According to the Region II dual role holder, there is no need for her to mark
memoranda prepared as attorney-client material because it is obvious from
the information contained in the memos that attorney advice is being
provided, and the privilege would be asserted if the document was
requested in a Freedom of Information Act request. The dual role holder
expressed a willingness to mark written documents as attorney-client
material to ensure correct interpretation, but opposed the idea of having to
clarify for agency staff when oral remarks constituted legal versus
programmatic advice. The dual role holder was not aware of staff ever
experiencing a problem where legal advice was mistaken for programmatic
advice or vice versa.




                                8
                            Audit of the Regional Counsel Role in the Enforcement Process



OIG contends that, consistent with SUNSI requirements, it is important for
there to be a process by which the dual role holder may distinguish legal
from non-legal advice. Failure to have such a process could lead to
confusion as to the protections to be accorded various documents. It could
also lead to a public perception that NRC has the authority to withhold all
documents prepared by the dual role holder – or even documents prepared
by others that contain advice provided by the dual role holder.

OIG further observes the situation involving classified information, where
protection requirements address both written and oral classified
information. Classified documents must be marked so there is no
confusion by a recipient about the level of protection needed for the
information. When classified information is discussed orally in a meeting,
participants must be cautioned that the information discussed was
classified and needs to be protected accordingly. OIG recognizes that
classified information warrants more rigorous protection than SUNSI
information, but provides this example to show that the technique of
informing listeners of the nature of certain information is not unusual, and is
already practiced at NRC.

Distinction Can Prevent Misunderstanding

It is important for the agency to provide a process to delineate the
character of the communication from NRC attorneys who are also assigned
an agency line function to clarify when they are providing legal versus non-
legal advice. Making this distinction will help prevent potential
misunderstanding by the public that any advice provided by the dual role
holder could be protected using an attorney-client privilege rationale.
Conversely, making such distinctions can help ensure that NRC is able to
protect the legal advice it seeks to properly protect.

Recommendations

OIG recommends that the Executive Director for Operations, in
consultation with the General Counsel:

3. Develop a management control to ensure that when an agency
   attorney is also assigned a line function, written legal advice provided
   by this individual is easily distinguished from non-legal advice.

4. Develop for agency attorneys who are also assigned a line function
   guidance to convey the need to clarify in conversations involving
   sensitive information that the information disclosed is of a sensitive
   nature.




                                9
                                   Audit of the Regional Counsel Role in the Enforcement Process



IV.   AGENCY COMMENTS

         During an exit conference held on April 20, 2009, the agency generally
         agreed with the findings and recommendations in this audit report, but
         opted to provide written comments concerning the draft audit report. OIG
         modified the report as we deemed appropriate in response to the
         comments. NRC reviewed the modifications and decided not to submit
         formal written comments to this final version of the report.




                                      10
                                    Audit of the Regional Counsel Role in the Enforcement Process



V.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1. Develop a new position description and conduct a position evaluation
            for the dual role Regional Counsel/Enforcement Supervisor position
            and have headquarters Office of Human Resources verify the
            evaluation outcome.

         2. Ensure that a dual role holder meets the requirements for the new
            position.

         OIG recommends that the Executive Director for Operations, in
         consultation with the General Counsel:

         3. Develop a management control to ensure that when an agency
            attorney is also assigned a line function, written legal advice provided
            by this individual is easily distinguished from non-legal advice.

         4. Develop for agency attorneys who are also assigned a line function
            guidance to convey the need to clarify in conversations involving
            sensitive information that the information disclosed is of a sensitive
            nature.




                                       11
            Audit of the Regional Counsel Role in the Enforcement Process




[Page intentionally left blank.]




               12
                                  Audit of the Regional Counsel Role in the Enforcement Process


                                                                                     Appendix
SCOPE AND METHODOLOGY

       The audit objective was to determine whether combining the roles of
       regional counsel and enforcement supervisor is a workable approach for
       regional enforcement programs.

       Auditors reviewed Office of Personnel Management and agency human
       resources guidance to identify human resource requirements for creating
       and filling positions. Guidance reviewed included the following:

              Management Directive and Handbook (MD) 10.15, Merit
               Staffing Program.

              MD 10.37, Position Evaluation and Benchmarks.

              MD 10.67, Non-SES Performance Appraisal System..

       Auditors reviewed the enforcement staffing configurations in each regional
       office and position descriptions for regional counsels and enforcement
       supervisors in each region. Auditors reviewed NRC’s Enforcement Policy,
       Enforcement Manual, and guidance pertaining to the Alternative Dispute
       Resolution Program to identify the roles played by various NRC staff in the
       enforcement process. Auditors also reviewed agency information security
       requirements as posted on the agency’s internal Web site.

       OIG interviewed headquarters staff in the Office of Enforcement and the
       Office of the General Counsel to learn about the roles played by regional
       and headquarters staff in the enforcement process and to obtain their
       views on the effectiveness of the dual role. OIG interviewed an Office of
       Human Resources official about agency personnel procedures. OIG
       interviewed the Region IV Administrator and Regional Counsel by
       telephone to obtain their views on the effectiveness of the dual role. OIG
       traveled to Atlanta, Georgia, and interviewed Region II managers about
       the effectiveness of the dual role and their rationale for using that
       approach.

       OIG conducted this audit between November 2008 and March 2009 in
       accordance with generally accepted Government auditing standards.
       Those standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that
       the evidence obtained provides a reasonable basis for our finding and
       conclusions based on our audit objective.

       Major contributors to this report were Anthony Lipuma, Deputy Assistant
       Inspector General for Audits, and Judy Gordon, Senior Analyst.

                                     13
